           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 SOCIAL SECURITY ADMINISTRATION’S
   CONTROLS OVER THE TITLE XVI
   OVERPAYMENT WAIVER PROCESS


  October 2004      A-06-03-13077




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY

MEMORANDUM

Date:   October 25, 2004                                                           Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Social Security Administration’s Controls Over the Title XVI Overpayment Waiver
        Process (A-06-03-13077)

        OBJECTIVE

        Our objectives were to (1) evaluate the Social Security Administration’s (SSA) controls
        over the Title XVI overpayment waiver process to assess the appropriateness of
        overpayment waiver decisions of $500 or less and (2) determine whether overpayment
        waivers exceeding $500 were developed in accordance with the provisions defined in
        Title XVI of the Social Security Act (the Act).

        BACKGROUND
        Title XVI of the Act as amended, established the Supplemental Security Income (SSI)
        program, effective January 1, 1974.1 SSA is responsible for administering this
        program.2 SSI provides a minimum level of income for people who are age 65 or over,
        or who are blind or disabled and who do not have sufficient income and resources to
        maintain a standard of living at the established Federal minimum income level.3 SSA
        relies heavily upon beneficiary self-disclosure of resources and earnings, as well as
        computer matching from other Federal and State agencies to determine eligibility and to
        compute monthly benefits. Financial resources and earnings may vary from month to
        month and recipients may elect payment continuation during a disability cessation
        appeal,4 consequently SSI payments can be error prone and may result in
        overpayments. Under certain situations when the recipient is not at fault, SSA will grant
        an overpayment waiver. The waiver relieves the individual from further liability for the
        overpayment.



        1
          20 C.F.R. § 416.101.
        2
          20 C.F.R. § 416.105.
        3
          20 C.F.R. § 416.110.
        4
          SSA, Program Operations Manual System (POMS), SI 02260.007(2)(a).
Page 2 – The Commissioner

Office of Management and Budget (OMB) Circular A-1235 defines Agencies’
stewardship responsibilities and management controls to protect programs from waste,
fraud, and mismanagement. Appendix B provides additional background information
and makes reference to three other Office of the Inspector General (OIG) audits on SSI
overpayments. The scope and methodology of our review is described in Appendix C.
Appendix D illustrates SSA’s procedures for granting waivers, and Appendix E contains
our sample methodology and results.

RESULTS OF REVIEW
While SSA established policies and procedures that provided safeguards from fraud,
waste, and mismanagement for SSI overpayment waivers, these procedures were not
always implemented. Specifically, our review of a statistical sample of 250 waiver
decisions below $20,000 and all 13 waiver decisions above $20,000 from one segment
of the Supplemental Security Record disclosed:

•     No documentation was available to support waiver decisions for 133 of 263 sample
      items (50.6 percent).

•      SSA was unable to provide case folders for another 30 decisions (11 percent).

•     There were decisions that did not conform to SSA policy for 17 waiver approvals
      (7 percent).

                       Summary of Supplemental Security
                       Income Waiver Decisions Reviewed

            No Folder
         Provided – 11%
                                                                          Decisions without
                                                                            Supporting
                                                                        Documentation – 51%
               Noncompliant
              Decisions – 7%


       Decisions with
        Supporting
    Documentation – 38%

                           Compliant
                         Decisions – 31%




5
    OMB Circular A-123, Management Accountability and Control (1995).
Page 3 – The Commissioner

We project the amount of unsupported approved waiver decisions could total at least
$64.4 million for an estimated 159,880 cases below $20,000 and $418,500 for an
estimated 20 cases above $20,000. Because SSA was unable to provide us case
folders for 30 sample items (11.4 percent)—27 cases below $20,000 and 3 cases above
$20,000—we were unable to assess the appropriateness of the waiver decisions for
these 30 items. Based on this result, we estimate SSA would be unable to provide case
folders to support 24,880 waiver decisions with a total value of at least $16.8 million.

UNSUPPORTED WAIVER DECISIONS

There was no documentation to support waiver decisions for 133 of 263 sample items
(50.6 percent). According to SSA policy, a recipient’s request for waiver of
overpayment recovery must be documented except when the overpayment was caused
by the recipient’s resources exceeding the resource limit by $50 or less.6 We
determined that none of the overpayments in our sample were caused by excess
resources of $50 or less.

SSA provided the case folder for 233 (88.6 percent) of the 263 sample items, but the
documentation was incomplete or missing for 133 waiver decisions. Waiver decisions
lacked documentation for 84 cases of $500 or less, 47 cases exceeding $500, and
2 cases exceeding $20,000. Based on discussions with SSA employees responsible for
waiver decisions, we found that employees displayed a general lack of concern for
small waiver amounts and failed to adequately document and maintain waiver
documents. Without supporting documentation, there was no assurance that SSA
complied with its management controls for overpayment waivers. If SSA does not
comply with its waiver process, the integrity of the process is weakened and waivers are
susceptible to fraud, waste and mismanagement.

SSA policy requires that the resolution of SSI overpayments be documented.7 SSA
must also document case development used to make a waiver determination.8 Field
Offices (FO) and Tele-Service Centers (TSC) send post-eligibility (PE) documents, such
as waiver documentation, to the Wilkes-Barre Folder Servicing Operations (WBFSO) for
long-term storage. SSA policy states that waiver documentation (Forms SSA-632-BK,
SSA-5002, or SSA-795) is to be retained until the claims file is destroyed.9

To review the adequacy of supporting documentation, we

•   Requested the initial claim and PE files for all sample items from WBFSO, the
    current folder location, and the waiver-approving FO (if different from the current
    folder location), and




6
  SSA, POMS, SI 02260.035(A)(6), SI 02260.005(A)(1) & (2), SI 02260.005(C)(3)(d).
7
  SSA, POMS, SI 02220.005(B).
8
  See SSA, POMS, SI 02260.010(B), GN 02250.230(A).
9
  See SSA, POMS, GN 01085.025.
Page 4 – The Commissioner

•    Queried and reviewed electronic documentation in the Modernized Supplemental
     Security Income Claims System (MSSICS), Modernized Developmental Worksheet
     (MDW), and Debt Management System (DMS) for supporting waiver information.

We considered waiver decisions to be unsupported if the supporting documentation for
the waiver decision was missing or the waiver documentation was not completed.

Waiver Decisions of $500 or Less

For waiver requests on overpayments of $500 or less,10 SSA is required to document
the request on Form SSA-795 (Statement by Claimant or Other Person) when the
individual makes the request in person or Form SSA-5002 (Record of Contact) when
the individual makes the request by phone.11 We regarded waiver requests recorded by
SSA in MSSICS, MDW, or DMS as supporting documentation. SSA provided 116 case
folders but could not provide the folders for 9 cases in our sample. Of the 116 case
folders provided, there was no documentation to support 84 decisions. These included
83 waivers processed as approved and one processed as denied. Specifically, for
these 84 decisions, there was no evidence in the case folder that a waiver had been
requested, nor was there evidence in MSSICS, MDW, or DMS to demonstrate that a
waiver had been requested. The 83 approved waivers totaled $15,486.

Based on discussions with SSA employees responsible for processing waiver requests,
we were told that waiver documentation was destroyed, improperly maintained, or was
not completed. For example, one SSA field office employee informed us they
administratively waived overpayments of $500 or less, in many instances, without
contacting the recipient or without the recipient’s request for waiver. SSA employees at
other field offices also stated they would administratively waive the overpayment without
completing the supporting documentation or shred waiver documentation they thought
to be immaterial. Employees from three TSCs said they shredded the overpayment
documents 3 to 12 months after the waiver decision, instead of shipping the PE material
to the WBFSO as mandated in SSA policy.12

Waiver Decisions Between $500 and $20,000

SSA is required to document waiver requests for overpayments exceeding $500 on
Form SSA-632-BK (Request for Waiver of Overpayment Recovery of Change in
Recovery Status) except when equivalent information about fault and financial
circumstances is included in the file.13 SSA provided 107 case folders but could not

10
   There were four waiver decisions of overpayments below $500 where the original overpayment
amounts were greater than $500. Because POMS guidelines did not clearly state that documentation
decisions were to be based on original overpayment amounts, we applied the documentation
requirements applicable to amounts under $500 for these four waiver decisions. We noted that for two of
the decisions, the field office applied an administrative waiver although the original overpayment was
greater than $500.
11
   SSA, POMS, SI 02260.005(C)(3)(d).
12
   SSA, POMS, SM 01201.170(C).
13
   SSA, POMS, SI 02260.005(A)(1) & (2).
Page 5 – The Commissioner

provide the folders for 18 cases in our sample. Of the 107 case folders provided, there
was no documentation to support 47 decisions, nor was there any electronic
documentation to support these cases. Of these 47, SSA approved 38 waiver requests
totaling $75,864 and denied 9 waiver requests totaling $15,975.

In discussing the lack of supporting documentation with SSA employees, the employees
stated that waiver documentation was completed for waiver decisions exceeding $500.
The employees believed the documentation could not be located for the following
reasons: (1) the creation of multiple PE folders can complicate locating PE documents;
(2) the recording of folder movement is prone to error or not updated; and/or
(3) retrieving folders from WBFSO is unreliable. To emphasize this point, one SSA
employee informed us that her FO had participated in an on-site case folder review,
whereby they attempted to retrieve previously completed waiver documentation for
8 waiver decisions from the WBFSO. The overpayment waiver documentation could
not be located for any of the 8 cases.

Waiver Decisions Exceeding $20,000

SSA could not provide supporting documentation for 2 of 13 waiver requests above
$20,000. Of these, SSA approved one waiver totaling $20,925 and denied another
waiver totaling $30,489. SSA could not provide the case folder for three of the waiver
requests above $20,000.

WAIVER DECISIONS APPROVED CONTRARY TO SSA POLICY

Because supporting documentation was not available or a case folder was not provided
for 163 decisions, we reviewed the appropriateness of only 100 of the 263 waiver
decisions. Of the 100 waiver decisions with supporting documentation, 17 decisions
totaling $144,547 had been approved contrary to SSA policy. Four waiver approvals
totaling $58,631 were approved for overpayments that, on further development, were
not considered overpayments. Six waiver approvals totaling $40,395 were
inappropriately approved by SSA. Also, seven waiver approvals totaling $45,521 lacked
the necessary supervisory review. Since SSA relies on prior overpayment information
for determining fault,14 the approval of overpayment waivers for an invalid debt can
adversely affect the recipient’s payment/debt collection record. Waiver decisions
approved contrary to SSA policy eliminate the possibility of collecting improper
payments and impose an unnecessary burden on taxpayer dollars.

Invalid Overpayments Waived

SSA approved four overpayment waivers that, on further development, were not
considered overpayments. The overpayment resolution process is continuous and
ongoing. It ends when the entire amount of the debt has been accounted for through
recovery or waiver; or through a determination that the debt did not exist or is


14
     SSA, POMS, SI 02260.010(F)(5).
Page 6 – The Commissioner

uncollectible.15 In one example, SSA determined an individual was overpaid because
he elected to have his benefits continued during a disability cessation appeal. However,
the administrative law judge overturned the decision to cease the individual’s disability
benefits and the appeal was fully favorable to the individual. SSA approved waivers for
three similar cases in our sample where the overpayment was later dismissed.

SSA relies on overpayment waiver information and decisions already on the recipient’s
record to make collection decisions on future overpayments. Therefore, SSA could
incorrectly deny a request for a waiver based on invalid or incorrect information on the
recipient’s record.

Inappropriate Waiver Decisions

SSA inappropriately waived 6 overpayments because the individuals were ineligible for
waiver approvals or the circumstances involved did not support a waiver approval. This
included two cases in which representative payees16 misused funds, two waivers over
$500 that were improperly approved by the Program Service Center (PSC), and two
waivers not properly developed.

The determination of responsibility for repayment of an overpayment is as much a part
of the determination of overpayment, as is the fact and amount of the overpayment.17 A
representative payee is personally responsible for repayment when the funds were not
used for the support and maintenance of the recipient.18 For two waiver requests
totaling $8,868, the representative payee was the responsible individual; however, the
waiver request was approved for the SSI recipients. The SSI recipients were not at fault
and did not benefit from or receive the overpaid funds. SSA attempted to recover the
overpaid funds from the representative payee for one case. For another case, SSA did
not attempt to recover the misused funds. We referred this case to OIG, Office of
Investigations for further review.

The PSC approved two waiver requests above $500 totaling $5,028 although SSA
policy explicitly forbids it from approving waiver requests above $500.19 In one case,
the waiver documentation completed by the field office determined the individual was at
fault for the overpayment and was, therefore, ineligible for a waiver approval.20

SSA approved two waiver requests totaling $26,499 without proper development for
overpayments caused by payment continuation during a disability cessation appeal.
One recipient was in prison during the entire appeals process, and being an inmate of a
public institution throughout a month is a reportable event that stops SSI payments.21

15
   SSA, POMS, SI 02201.005(A)(2)(a).
16
   A representative payee is an individual or organization who manages a recipient’s SSI payments. SSA
appoints representative payees when individuals are incapable of managing their own payments.
17
   SSA,POMS, SI 02201.005(A)(3).
18
   SSA, POMS, SI 02201.021(A)(1)(b).
19
   SSA, POMS, GN 02210.219(A)(4).
20
   See 20 CFR § 416.550.
21
   SSA, POMS, SI 02301.005(B)(2), SI 00520.001(B)(4), SI 00520.001(C)(1)(b).
Page 7 – The Commissioner

According to documents in the file, SSA did not consider the recipient’s incarceration
when developing the facts surrounding the waiver request, even though the recipient
used his incarceration as an excuse on the waiver request. Another recipient did not
attend any of the three scheduled medical appointments requested by OHA. Further,
the recipient missed three scheduled OHA hearings before attending. Without the
requested additional medical evaluation, the recipient was unable to provide evidence of
his continuing disability. The waiver documentation in the file showed no indication that
the recipient’s lack of cooperation was taken into consideration in developing the waiver
request.

Lack of Supervisory Review for Waivers Exceeding $2,000

According to SSA policy, waiver decisions above $2,000 must be reviewed by an
immediate supervisor.22 Seven (30.4 percent) of the 23 cases above $2,000 did not
have the appropriate supervisory review. In total, there were 42 approved waiver
decisions above $2,000 in our sample of 263 waiver decisions; however, only 23 had
supporting documentation for our review. Therefore, we could only determine if
23 cases had the appropriate supervisory review.

Effective April 24, 2004, SSA implemented a change in its management review process
for overpayments exceeding $2,000 whereby managers would use their personal
identification number to document and post their review of the disposition decision.23
We did not test the effectiveness of this control to determine if employees could bypass
the manager’s review; however, if effective, it should minimize the risk that waiver
decisions above $2,000 will be approved contrary to SSA policy.

CONCLUSION AND RECOMMENDATIONS

SSA’s policies and procedures provided safeguards from fraud, waste and
mismanagement for SSI overpayment waivers; however, there was no documentation
for 50.6 percent of the decisions to demonstrate that SSA complied with its policies.
Discussions with field office staff confirmed that SSA policy was being circumvented by
issuing waivers without the required request from the recipient. We also found waiver
decisions had been made without the required development of the recipient’s fault and
financial circumstances. Failure to document that waiver policies and procedures are
followed or the inability to produce that documentation brings into question the integrity
of this process.

We also found that SSA made waiver decisions contrary to SSA policy for 17 of
100 decisions for which documentation was available. As a result of these findings, the
waiver process is susceptible to fraud, waste, and mismanagement.




22
     SSA, POMS, SI 02220.005(C)(5) & (6).
23
     SSA, POMS, SI 02220.005(A).
Page 8 – The Commissioner

We recommend that SSA:

1. Ensure that employees develop and maintain documentation for all waivers to
   include the recipients request for waivers, and discontinue the practice of shredding
   waiver documentation.

2. Ensure that employees properly develop fault and financial circumstances and
   discontinue the practice of granting waivers when development is incomplete.

3. Ensure that waivers over $2,000 are reviewed by supervisors before a decision
   becomes final.


AGENCY COMMENTS
SSA agreed with our recommendations. SSA stated, however, that the main reason for
the report findings leading to the first recommendation was that it changed the
overpayment documentation policies on January 9, 2003, from a paper process to a
paperless workload. In addition, overpayment decisions have been processed through
MSSICS since September 2001. SSA also provided technical comments that we
incorporated into the final report as appropriate. See Appendix F for the text of SSA’s
comments.

OIG RESPONSE
The policy change made on January 9, 2003, had no impact on the report findings
because we reviewed overpayment waiver decisions made during the period
October 2001 through September 2002. We acknowledge that overpayment decisions
were processed through MSSICS since September 2001. As part of our audit, we
retrieved and considered information available through MSSICS along with supporting
documentation from the case folders to determine if the waivers were properly
documented and in accordance with SSA policies.




                                                S
                                                Patrick P. O’Carroll, Jr.
                               Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Title XVI Overpayment Waiver Procedures

APPENDIX E – Sample Methodology and Results

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A
Acronyms
DMS      Debt Management System
FO       Field Office
MDW      Modernized Development Worksheet
MSSICS   Modernized Supplemental Security Income Claims System
OIG      Office of the Inspector General
OMB      Office of Management and Budget
PE       Post Eligibility
POMS     Program Operations Manual System
PSC      Program Service Center
SSA      Social Security Administration
SSI      Supplemental Security Income
TSC      Tele-Service Centers
WBFSO    Wilkes-Barre Folder Servicing Operation
                                                                      Appendix B
Background
The Supplemental Security Income (SSI) program administered by the Social Security
Administration (SSA) was created as a result of the Social Security Amendments of
1972. The SSI program under Title XVI of the Social Security Act, which was effective
on January 1, 1974, provides income to financially needy individuals who are aged,
blind or disabled.1 SSA relies heavily upon beneficiary self-disclosure of resources and
earnings, as well as computer matching from other Federal and State agencies to
determine eligibility and compute monthly benefits. Since financial resources and
earnings may vary from month to month and recipients may elect payment continuation
during a disability cessation appeal, SSI payments are error prone and may result in
overpayments.

SSA grants SSI overpayment waivers under certain situations when the recipient is not
at fault for the overpayment.2 Recovery of an overpayment may be waived, if such
recovery would be against equity and good conscience, impedes effective and efficient
administration because of the small amount involved, or defeats the purpose of the SSI
program. In December 1993, SSA increased the overpayment waiver tolerance from
$100 to $500 for determining if development of an overpayment waiver would impede
efficient and effective administration of SSA programs.

Office of Management and Budget (OMB) Circular A-123, Management Accountability
and Control, section 3, revised June 21, 1995 states,

    Agencies and individual Federal managers must take systematic and proactive
    measures to (i) develop and implement appropriate, cost-effective management
    controls for results-oriented management; (ii) assess the adequacy of
    management controls in Federal programs and operations; (iii) identify needed
    improvements; (iv) take corresponding corrective action; and (v) report annually
    on management controls.

It further defines management controls, including organization, policies, and
procedures, as “…tools to help program and financial managers achieve results and
safeguard the integrity of their programs.”3 Also “… management controls are the
organization, policies, and procedures used to reasonably ensure that programs and
resources are protected from waste, fraud, and mismanagement.”4

SSA has procedures in place that specify conditions under which waivers can be
approved. These procedures constitute management controls designed to ensure the

1
  Social Security Amendments of 1972 (Public Law 92-603).
2
  See 20 CFR § 416.550.
3
  OMB Circular A-123, Attachment I (as amended June 21, 1995).
4
  OMB Circular A-123, section 2 (as amended June 21, 1995).


                                                B-1
integrity of SSA actions with respect to Title XVI overpayment waivers and help
minimize the risk of waste, fraud and mismanagement. Appendix D illustrates SSA’s
overpayment waiver procedures.

During our review, three other audits were being conducted on SSI overpayments, and
our work was coordinated to ensure there was no overlap. The three other audits are
discussed below.

•   SSA’s Controls over Suspending Collection Efforts on Title XVI Overpayment
    (A-04-04-24029) will assess SSA’s controls over suspending collection efforts on
    Title XVI overpayments, and determine whether they were in accordance with SSA’s
    policies and procedures.

•   SSA’s Administrative Finality Rules (A-01-04-24024) will assess the Agency’s
    application of administrative finality rules to SSI and Old-Age, Survivors, and
    Disability Insurance case.

•   Supplemental Security Income Overpayments (A-01-04-24022), issued April 2004,
    assessed SSA’s efforts to identify, prevent, and resolve SSI overpayments.




                                            B-2
                                                                      Appendix C
Scope and Methodology
We reviewed 250 statistically selected overpayment waiver requests recorded in 1 of
20 Supplemental Security Record segments during the period October 1, 2001 through
September 30, 2002. Our sample included 125 overpayment waiver requests of $500
or less and 125 overpayment waiver requests exceeding $500. We also selected the
entire population of 13 overpayment waiver requests above $20,000. Waiver request
amounts can differ from total overpayment amounts. In four instances, the selected
overpayment waiver requests were less than $500, but the total overpayment exceeded
$500. For two of these cases, SSA used an administrative waiver applicable to
overpayments under $500. In evaluating these four cases, we applied the
documentation requirements applicable to overpayments under $500. See Appendix D
for a description of the Title XVI overpayment waiver procedures. We reviewed each
overpayment waiver for appropriateness as defined in the Program Operations Manual
System and Tele-Service Center Operating Guide, reliability of data located on the
Supplemental Security Record, and existence of supporting documentation.

We also:

•   Reviewed applicable Federal regulations governing overpayment waivers under
    Title XVI of the Social Security Act.

•   Interviewed field office staff regarding procedures used in developing an
    overpayment decision.

•   Reviewed prior Office of the Inspector General and Government Accountability
    Office reports pertaining to Supplemental Security Income overpayment waivers.

•   Requested and reviewed case files from Social Security Administration (SSA) field
    offices, Disability Determination Services, Offices of Hearings and Appeals, and the
    Wilkes-Barre Folder Servicing Operation.

•   Queried and reviewed overpayment waiver information for sample items from SSA’s
    Modernized Supplemental Security Income Claims System, Modernized
    Development Worksheet, and Debt Management System.

We conducted field work from August 2003 through March 2004 at SSA’s Regional
Office in Dallas, Texas. The entity audited was the Office of Income Security Programs
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We conducted this audit in accordance with generally accepted government
auditing standards.
                                                                                 Appendix D
Title XVI Overpayment Waiver Procedures
According to Social Security Administration (SSA) policy, a recipient’s request for
overpayment waiver recovery must be documented except if the overpayment was
caused by the recipient’s resources exceeding the resource limit by $50 or less.1 For
waiver requests of overpayments above $500, the Form SSA-632-BK (Request for
Waiver of Overpayment Recovery or Change in Repayment Status) is used to obtain
sufficient information from the recipient about fault and financial circumstances to make
a waiver decision.2 SSA may accept similar information about fault and financial
circumstances in place of Form SSA-632-BK submitted by the recipient with the
recipient’s signature.




         Is the recipient                                                    Is overpayment
         at fault for the                         No                           greater than
          overpayment?                                                            $500?

                                                 Yes

                                                                                      No
                                           Would recovery
               Yes                            defeat the             Yes
                                           purpose of SSI?

                                No
                                             Is recovery
                                          against equity and
                                          good conscience?


                                     No                        Yes
          Waiver Denial                                                      Waiver Approval




If SSA administratively waives an overpayment of $500 or less, a Form SSA-632-BK is
not needed. Instead, SSA uses Form SSA-5002 (Record of Contact) or Form SSA-795
(Statement by Claimant or Other Person) to document the recipient’s request for an


1
    SSA, POMS, SI 02260.035(A)(6), SI 02260.005(A)(1) & (2), SI 02260.005(C)(3)(d).
2
    SSA, POMS, SI 02260.005(A)(1) & (2).


                                                   D-1
overpayment waiver. SSA policy states that waiver documents are retained until the
claims file is destroyed.3 After the waiver has been requested, SSA develops the
request according to waiver procedures set forth in SSA policy.4

DETERMINATION OF FAULT

In determining fault, SSA must consider all circumstances surrounding the
overpayment. Among other factors, SSA evaluates the recipient’s comprehension and
mental capacity to understand and comply with reporting responsibilities for the
Supplemental Security Income (SSI) program. The recipient will be found at fault in the
following situations:

•   Failure to furnish information the recipient knew or should have known was material;
•   An incorrect statement made by the recipient, which he knew or should have known
    was incorrect; or
•   The individual did not return a payment, which he knew or could have been
    expected to know was incorrect.5

For a waiver request of $500 or less, a recipient is assumed to be without fault in
causing the overpayment, unless an indication of fault is apparent on the face of the
waiver request.6

DEFEATS THE PURPOSE OF SSI

Recovery of an overpayment would defeat the purpose of SSI if the individual’s income
and resources are needed for ordinary and necessary living expenses; and, for a
currently eligible individual, if the individual’s income (including any deemed income)
does not exceed:

•   The Federal benefit rate; plus
•   The $20 general exclusion; plus
•   The $65 earned income exclusion; plus
•   The federally administered State supplementary payment (if any).7

AGAINST EQUITY AND GOOD CONSCIENCE

Recovery of an overpayment is against equity and good conscience if an individual
changed his or her position for the worse or relinquished a valuable right upon reliance
that a payment would be made or was incorrect. It is also against equity and good
conscience to collect any part of an overpayment not received by a member of an
eligible couple who was legally separated and/or living apart during the overpayment

3
  See SSA, POMS, GN 01085.025.
4
  See SSA, POMS, GN 02201.019; GN 02201.021 and GN 02201.023.
5
  20 CFR § 416.552.
6
  SSA, POMS, SI 02260.030(C)(1).
7
  See 20 CFR § 416.553.


                                           D-2
period.8 Examples include situations where the individual incurred additional expenses
such as increased rental liability or college expenses, or if the individual failed to take
advantage of a private or organization charity relying instead on the award of SSI
payments for support.




8
    See 20 CFR § 416.554.


                                            D-3
                                                                             Appendix E
Sampling Methodology and Results
                         SAMPLE POPULATION
        FROM 1 OF 20 SUPPLEMENTAL SECURITY RECORD SEGMENTS
                           FISCAL YEAR 2002

                   Strata                     Waiver Decisions           Dollar Amount

 $500 or Less                                                11,004                 2,077,145
 Exceeding $500                                                  5,006             11,805,181
 Above $20,000                                                     13                    391,110
                                                             16,023                14,273,436


We selected a stratified statistical sample of 250 waiver requests from one segment of
the Supplemental Security Record in Fiscal Year 2002. We selected 125 items where
the waiver request was $0.01 through $500.00 and 125 items where the waiver request
was $500.01 through $19,999.99.

There were 13 waiver decisions of $20,000 or more in FY 2002 and we selected all
13 decisions.

   Attribute Appraisal: Unsupported Approved Waiver Decisions Under $20,000
 Total Segment Population                                                                  16,010
 Sample Size                                                                                 250
 Number of Unsupported Approved Waivers                                                      121
 Projection of Unsupported Approved Waivers in Segment Population:
     Lower Limit                                                                            7,994
     Point Estimate                                                                         8,828
     Upper Limit                                                                            9,662


 Estimate of Unsupported Approved Waivers in all 20 Segments                              159,880

       All projections are at the 90-percent confidence level.




                                                   E-1
 Variable Appraisal: Unsupported Approved Waiver Decisions Under $20,000
Total Segment Population                                                        16,010
Total Sample Size                                                                  250
Total Dollars of Unsupported Approved Waivers in Sample                        $91,350
Projected Value of Unsupported Approved Waivers in Segment:
    Lower Limit                                                              $3,218,507
    Point Estimate                                                           $4,401,437
    Upper Limit                                                              $5,584,367


Estimated Value of Unsupported Approved Waivers in all 20 Segments          $64,370,140

      All projections are at the 90-percent confidence level.


    Attribute Appraisal: Waiver Decisions Under $20,000 Without Case Files
Total Segment Population                                                         16,010
Sample Size                                                                        250
Number of Unsupported Approved Waivers                                              27
Projection of Waiver Decisions Without Case Files in Segment Population:
    Lower Limit                                                                   1,241
    Point Estimate                                                                1,729
    Upper Limit                                                                   2,331


Estimate of Waiver Decisions Without Case Files in all 20 Segments               24,820

      All projections are at the 90-percent confidence level.


    Variable Appraisal: Waiver Decisions Under $20,000 Without Case Files
Total Segment Population                                                        16,010
Total Sample Size                                                                  250
Total Dollars of Unsupported Approved Waivers in Sample                        $29,807
Projected Value of Waiver Decisions Without Case Files in Segment:
    Lower Limit                                                               $723,444
    Point Estimate                                                           $1,273,703
    Upper Limit                                                              $1,823,962


Estimated Value of Waiver Decisions Without Case Files in all 20 Segments   $14,468,880

      All projections are at the 90-percent confidence level.
                                                  E-2
             Unsupported Approved Waiver Decisions Above $20,000
Total Segment Population                                                           13
Number Reviewed                                                                    13
Number of Unsupported Waiver Approvals                                              1
Total Dollars of Unsupported Approved Waivers Reviewed                        $20,925


Estimate of Unsupported Approved Waivers in all 20 Segments                        20
Estimated Value of Unsupported Approved Waivers in all 20 Segments           $418,496




                Waiver Decisions Above $20,000 Without Case Files
Total Segment Population                                                           13
Number Reviewed                                                                    13
Number of Unsupported Waiver Approvals                                              3
Total Dollars of Waiver Decisions Without Case Files                         $115,466


Estimate of Waiver Decisions Without Case Files in all 20 Segments                 60
Estimated Value of Waiver Decisions Without Case Files in all 20 Segments   $2,309,320




                                               E-3
                  Appendix F

Agency Comments
                                           SOCIAL SECURITY


MEMORANDUM                                                                           33191-24-1110


Date:      September 22,2004                                                         Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Social Security Administration’s Controls
           Over the Title XVI Waiver Process” (A-06-03-13077)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments to the recommendations are
           attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




                                                            F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
THE TITLE XVI WAIVER PROCESS” A-06-03-13077

We appreciate the opportunity to comment on the draft report. We agree that properly
documenting overpayment actions consistent with Agency guidelines will help ensure the
integrity of the Supplemental Security Income (SSI) program. Also, it should be noted
within the report that payments made pursuant to payment continuation are required by
law and are not considered errors by the Agency, even though they might result in
overpayments. The Office of Management and Budget (OMB) agreed with the Social
Security Administration (SSA) that overpayments stemming from benefit (payment)
continuation are not erroneous and are not considered improper payments. Therefore,
mention of benefit continuation overpayments should not be associated with improper
payment errors in the SSI program.

Our comments to the recommendations and technical comments to the report are below.

Recommendation 1

Ensure that employees develop and maintain documentation for all waivers to include the
recipient’s request for waiver, and discontinue the practice of shredding waiver
documentation.

Comment:

We agree. On January 9, 2003, the Agency officially released transmittal SI 02220.005
to change the overpayment documentation policies from a paper process to a paperless
workload. Form SSA-8108 (SSI Overpayment and Disposition Determination) was
declared obsolete as the direct Supplemental Security Record (SSR) Update is used to
document overpayment decisions. Overpayment decisions have been processed through
Modernized Supplemental Security Income Claims System (MSSICS) since
September 2001. The current MSSICS screens allow for the claims representative to
provide documentation on the Development Report of Contact (DROC) screen
(SSA-5002), and Development Person Statement (DPST) screen (SSA-795), along with
general remarks to be placed on the Claims Development screen. Prior to January 2003,
all overpayment actions were documented on the paper form SSA-8108.

We believe that this documentation transition period, which coincided with OIG’s review
period, was the main reason for the report findings that led to this recommendation. We
are still in the process of fine tuning this paperless workload, which will require Program
Operations Manual System (POMS) updates to match those processes from paper to
electronic, field office (FO) reminders and possible refresher training.

We currently have a workgroup examining ways to appropriately collect and store folder
documentation electronically. Storing paper folder documentation beyond the required
retention period leads to difficulty storing folders and retrieving them at a later date, as
was evidenced in this review. Consistent with the Agency’s paperless efforts, to the
extent possible, documentation should be recorded and stored electronically for easy
                                            F-2
future reference. All post-entitlement folders are to be shipped to the Wilkes-Barre
Folder Servicing Operations in accordance with POMS SM 01201.170.

Recommendation 2

Ensure that employees properly develop fault and financial circumstances and
discontinue the practice of granting waivers when development is incomplete.

Comment

We agree. We will release a reminder by the end of October 2004 to FO employees to
develop “without fault” and financial circumstances prior to granting a waiver.

The current waiver screen in MSSICS (Overpayment and Underpayment Waiver
(UOWV) screen) is designed for the decision-making employee to choose only “1”
reason for granting the waiver, despite the fact that there are two factors which must be
met for a waiver to be granted in all overpayments of more than $500. We are concerned
that this may be causing employees to simplify the decision and forget to consider both
the “fault” and “financial” factors. We plan to address this issue during systems
enhancements.

Recommendation 3

Ensure that waivers over $2,000 are reviewed by supervisors before a decision becomes
final.

Comment

We agree. Effective April 24, 2004, a change was implemented in the management
review process for overpayments exceeding $2,000 whereby a 2-pin process is required
for management officials to approve overpayments and post their review of the
disposition decision. Also, the 2-pin process prevents overpayments exceeding $20,000
from being waived without Regional Office concurrence.




                                           F-3
                                                                       Appendix G
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments
In addition to those named above:

   Joshua Campos, Auditor-in-Charge

   Ashley Moore, Auditor

   Warren Wasson, Senior Auditor

   Brennan Kraje, Statistician

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-03-13077.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
  House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on Appropriations,
U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
